IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
PATRICK OKEY
,
Petitioner
v.
COMMONWEALTH OF
PENNSYLVANIA
Respondents

:
:
:
:
:
:

21-189

(Electronically filed)

Certificate of Service
I, James Edward Zamkotowicz, Senior Deputy Prosecutor for the York
County District Attorney’s Office, hereby certify that I served a copy of the
foregoing waiver of response, by Electronic Filing to the Court, and by placing
the same in the United States mail, first class, postage prepaid, and addressed to the
following:
Patrick okey
425 South Cameron Street
Harrisburg, PA 17101
Respectfully submitted,
_/s/_James Edward Zamkotowicz__
James Edward Zamkotowicz
Senior Deputy Prosecutor
Office of the District Attorney
Supreme Court I.D. # 203058
45 North George Street
York, PA 17401
(717) 771-9600

